     DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL


                                                                         Office of Audit Services, Region IV
                                                                         61 Forsyth Street, SW, Suite 3T41
                                                                         Atlanta, GA 30303
June 14, 2011



Report Number: A-04-07-00033

Mr. Steve Bishop
Accounting Director
CIGNA Government Services
Two Vantage Way
Nashville, TN 37228

Dear Mr. Bishop:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of CIGNA Government Services Durable Medical
Equipment Regional Carrier Medicare Termination Cost Vouchers for the Period October 1,
2006, Through October 31, 2007. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-07-00033 in all correspondence.

                                                    Sincerely,



                                                    /John T. Drake, Sr./
                                                    Acting Regional Inspector General
                                                      for Audit Services

Enclosure
Page 2 – Mr. Steve Bishop


Direct Reply to HHS Action Official:

Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
           OFFICE OF 

      INSPECTOR GENERAL 



REVIEW OF CIGNA GOVERNMENT 

  SERVICES DURABLE MEDICAL 

 EQUIPMENT REGIONAL CARRIER 

 MEDICARE TERMINATION COST 

   VOUCHERS FOR THE PERIOD 

  OCTOBER 1, 2006, THROUGH 

      OCTOBER 31, 2007





                      Daniel R. Levinson

                       Inspector General 


                          June 2011 

                        A-04-07-00033 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Part B program includes certain
medical equipment and related services, including durable medical equipment and other medical
services. The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program by contracting with private organizations to process and pay claims for services
provided to eligible beneficiaries.

CIGNA is a holding company for Connecticut General Life Insurance Company, the legal entity
that holds the Medicare contracts. CIGNA HealthCare, one of CIGNA’s operating divisions,
administered various Medicare contracts via CIGNA Government Services, a wholly owned
subsidiary of CIGNA. During the period October 1, 2003, through September 30, 2006, CMS
contracted with CIGNA to serve as the Durable Medical Equipment Regional Carrier (DMERC)
for Alaska, Arizona, California, Guam, Hawaii, Idaho, Iowa, Kansas, Missouri, Montana,
Nebraska, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington, Wyoming,
Northern Mariana Islands, and American Samoa. During this period, CMS also contracted with
CIGNA to serve as the Medicare Part B carrier for the States of Tennessee, North Carolina, and
Idaho.

CIGNA’s DMERC contract with CMS provided for reimbursement of allowable administrative
costs incurred and allowable termination costs if CMS terminated the contract. Such
administrative costs included the direct costs of administering the contract as well as allocations
of certain indirect costs of services or assets used by Medicare and other entities. CMS
guidelines required contractors to file costs incurred prior to the contract termination as
administrative costs through submission to CMS of a Final Administrative Cost Proposal and to
file costs incurred subsequent to contract termination on a separate termination cost voucher.

In accordance with CMS guidelines, CIGNA claimed reimbursement of administrative costs
through submission to CMS of annual Final Administrative Cost Proposals. For October 1,
2003, through September 30, 2006, CIGNA claimed approximately $75 million in
reimbursement for direct and indirect administrative costs related to its DMERC contract. We
reviewed these administrative costs incurred prior to the contract termination under a separate
report (A-04-07-00032).

After CMS terminated CIGNA’s DMERC contract effective September 30, 2006, CIGNA
submitted termination cost vouchers on which it claimed DMERC termination costs totaling
$2,289,864 for the period October 1, 2006, through October 31, 2007.

OBJECTIVE

Our objective was to determine whether the DMERC termination costs claimed by CIGNA were
reasonable, allocable, and allowable for Medicare reimbursement.



                                                 i
SUMMARY OF FINDINGS

Of the $2,289,864 in DMERC termination costs reviewed, $1,366,424 was allowable for
Medicare reimbursement under the DMERC contract. The remaining $923,440 was not. Of this
$923,440, we set aside $745,962 for CMS adjudication because it was otherwise allowable under
CIGNA’s Medicare Part B contract. The remaining $177,478 was unallowable for Medicare
reimbursement. These unallowable termination costs occurred because CIGNA did not have
adequate policies and procedures to ensure that these costs were adequately supported and
allocated to the DMERC contract in compliance with applicable Federal regulations and CMS
guidance.

RECOMMENDATIONS

We recommend that CIGNA:

   	 refund to CMS $177,478 related to unallowable costs claimed on CIGNA’s termination
      cost vouchers,

   	 work with CMS to resolve $745,962 in costs allocable to CIGNA’s Medicare Part B
      contract that were improperly claimed on CIGNA’s termination cost vouchers, and

   	 strengthen its policies and procedures to ensure compliance with applicable Federal
      regulations and CMS guidance for claiming termination costs.

CIGNA COMMENTS

In comments on our draft report, CIGNA disagreed with our findings and considered all costs
charged to the DMERC termination as allowable and allocable. CIGNA acknowledged that
there were employees terminated as part of the contract termination who had been working
primarily on the Part B contract. However, CIGNA maintained that the loss of the DMERC
contract triggered the severance and staff reduction. Accordingly, CIGNA reviewed the entire
employee population and retained the best employees regardless of the contract they were
currently working.

With regard to the finding of reasonable severance beyond 26 weeks, CIGNA stated that these
long term employees worked solely on government contracts throughout their careers, which
spanned periods of time in excess of the DMERC contract. Further, CIGNA maintained that no
severance expense would have been incurred without the DMERC contract termination and that
these payments were made pursuant to a written plan submitted to CMS annually as part of the
budget request process.

CIGNA disagreed with the $13,160 in moving, shipping, and office-closure costs deemed
unsupported and, therefore, unallowable. CIGNA stated that it provided us with invoices and
internal electronic documentation supporting some of these costs. CIGNA also stated that it can
provide invoices to CMS to confirm the proper treatment of the remaining expenses that we
deemed unsupported and unallowable.


                                               ii
CIGNA’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the severance pay for employees working on the Part B contract was not
reasonable, allocable, or allowable for Medicare reimbursement under the DMERC contract in
accordance with FAR 31.201-2(d) (48 CFR § 31.201-2(d)) and FAR 31.201-4 (48 CFR §
31.201-4). Furthermore, we maintain that the severance pay for employees for more than
26 weeks, the length of time we considered reasonable under the contract, were not distributed to
Medicare “in reasonable proportion to the benefits received….” as required by FAR 31.201-4 (b)
(48 CFR § 31.201-4(b)).

With regard to the $13,160 in moving, shipping, and office-closure costs, CIGNA did not
provide invoices or additional documentation supporting these expenses with its comments to the
draft report. Therefore, we could not determine whether these expenses were allowable for
allocation to the DMERC contract, and we maintain that these costs are not allocable to
Medicare.




                                               iii
                                                 TABLE OF CONTENTS


                                                                                                                                           Page


INTRODUCTION                 ................................................................................................................ 1


        BACKGROUND ........................................................................................................... 1                   

            Medicare Program.............................................................................................. 1 

            Connecticut General Life Insurance Company Medicare Contract ................... 1 


        OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                          2

             Objective ............................................................................................................          2     

             Scope ................................................................................................................          2     

             Methodology ......................................................................................................              2     


FINDINGS AND RECOMMENDATIONS .......................................................................... 3 


        PROGRAM REQUIREMENTS .................................................................................... 3 

            Federal Regulations ........................................................................................... 3                      

            Centers for Medicare & Medicaid Services Guidance ...................................... 4 


        TERMINATION COSTS NOT SUPPORTED AS REASONABLE, ALLOCABLE, 

          OR ALLOWABLE .................................................................................................... 4 

              Severance Pay .................................................................................................... 5                 

              Fringe Benefit Costs .......................................................................................... 5 

              Other Costs......................................................................................................... 6               


        INADEQUATE POLICIES AND PROCEDURES ...................................................... 6 


        RECOMMENDATIONS ............................................................................................... 6                          


        CIGNA COMMENTS ................................................................................................... 6                       


        OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 7 


APPENDIX

        CIGNA COMMENTS




                                                                    iv
                                              INTRODUCTION 


BACKGROUND

Medicare Program

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Part B program includes certain
medical equipment and related services, including durable medical equipment and other medical
services. The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program by contracting with private organizations to process and pay claims for services
provided to eligible beneficiaries.

Connecticut General Life Insurance Company Medicare Contract

CIGNA is a holding company for Connecticut General Life Insurance Company, the legal entity
that holds Medicare contracts. CIGNA HealthCare, one of CIGNA’s operating divisions,
administered various Medicare contracts via CIGNA Government Services, a wholly owned
subsidiary of CIGNA. During the period October 1, 2003, through September 30, 2006, CMS
contracted with CIGNA to serve as the Durable Medical Equipment Regional Carrier (DMERC)
for Alaska, Arizona, California, Guam, Hawaii, Idaho, Iowa, Kansas, Missouri, Montana,
Nebraska, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington, Wyoming,
Northern Mariana Islands, and American Samoa. During this period, CMS also contracted with
CIGNA to serve as the Medicare Part B carrier for the States of Tennessee, North Carolina, and
Idaho.

CIGNA’s DMERC contract with CMS provided for reimbursement of allowable administrative
costs incurred and allowable termination costs if CMS terminated the contract. Such
administrative costs included the direct costs of administering the contract as well as allocations
of certain indirect costs of services or assets used by Medicare and other entities. CMS
guidelines required contractors to file costs incurred prior to the contract termination as
administrative costs through submission to CMS of a Final Administrative Cost Proposal
(FACP) and to file costs incurred subsequent to contract termination on a separate termination
cost voucher.

In accordance with CMS guidelines, CIGNA claimed reimbursement of administrative costs
through submission to CMS of annual Final Administrative Cost Proposals. For October 1,
2003, through September 30, 2006, CIGNA claimed approximately $75 million in
reimbursement for direct and indirect administrative costs related to its DMERC contract.1

After CMS terminated CIGNA’s DMERC contract effective September 30, 2006, CIGNA
submitted termination cost vouchers on which it claimed DMERC termination costs totaling
$2,289,864 for the period October 1, 2006, through October 31, 2007.

1
 We reviewed these administrative costs incurred prior to contract termination under a separate report
(A-04-07-00032).


                                                       1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the DMERC termination costs claimed by CIGNA were
reasonable, allocable, and allowable for Medicare reimbursement.

Scope

Our review was limited to $2,289,864 in DMERC termination costs claimed on CIGNA’s
termination cost vouchers from October 1, 2006, through October 31, 2007. This total included
$1,785,229 for severance pay, $427,964 for fringe benefit costs related to severance pay, and
$76,671 for other costs.

We limited our internal control review to controls related to the recording and reporting of
DMERC termination costs claimed on CIGNA’s termination cost vouchers. We accomplished
our objective through substantive testing.

We conducted our fieldwork at CIGNA offices in Nashville, Tennessee.

Methodology

To accomplish our objective, we:

       reviewed applicable sections of the Federal Acquisition Regulations (FAR) and CIGNA’s
        contract with CMS;

       reviewed CMS guidance;

       reviewed CIGNA’s applicable severance pay and fringe benefit policies;

       reviewed personnel records;

       interviewed CIGNA officials to obtain an understanding of its claiming of termination
        costs;

       reviewed termination cost vouchers submitted by CIGNA to CMS for the period October
        1, 2006, through October 31, 2007;

       reviewed DMERC termination severance pay and related fringe benefit costs for
        allowability, allocability, and reasonableness by ensuring that CIGNA paid severance
        only to eligible employees working under the DMERC contract and that CIGNA properly
        calculated severance pay and related benefits;




                                              2

   	 recalculated severance pay and related fringe benefits in accordance with applicable
      Federal regulations and CMS guidance; and

   	 reviewed other DMERC termination costs for allowability, allocability, and 

      reasonableness by ensuring costs were supported by invoices, were related to the 

      DMERC contract, and were properly calculated. 


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the $2,289,864 in DMERC termination costs reviewed, $1,366,424 was allowable for
Medicare reimbursement under the DMERC contract. The remaining $923,440 was not. Of this
$923,440, we set aside $745,962 for CMS adjudication because it was otherwise allowable under
CIGNA’s Medicare Part B contract. The remaining $177,478 was unallowable for Medicare
reimbursement. These unallowable termination costs occurred because CIGNA did not have
adequate policies and procedures to ensure that these costs were adequately supported and
allocated to the DMERC contract in compliance with applicable Federal regulations and CMS
guidance.

PROGRAM REQUIREMENTS

Federal Regulations

The contract between CMS and CIGNA sets forth principles of reimbursement for administrative
costs. The contract cited the FAR, Title 48, Chapter 1 of the CFR, as regulatory principles to be
followed for application to the Medicare contract and provided additional guidelines for specific
cost areas.

Pursuant to FAR 31.201-2(a) (48 CFR § 31.201-2(a)):

   (a) A cost is allowable only when the cost complies with all of the following requirements:

       (1) Reasonableness.
       (2) Allocability.
       (3) Standards promulgated by the CAS Board, if applicable, otherwise, generally
           accepted accounting principles and practices appropriate to the circumstances.
       (4) Terms of the contract.




                                              3

Section 31.201-2(d) of the FAR (48 CFR § 31.201-2(d)) states that CIGNA is responsible for
“... maintaining records, including supporting documentation, adequate to demonstrate that costs
claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles ....”

Pursuant to FAR 31.201-4 (48 CFR § 31.201-4), which establishes guidelines for determining
allocability of contract costs, a cost “is allocable if it is assignable or chargeable to one or more
cost objectives on the basis of relative benefits received or other equitable relationship. Subject
to the foregoing, a cost is allocable to a Government contract if it … (b) Benefits both the
contract and other work, and can be distributed to them in reasonable proportion to the benefits
received ….”

Section 31.202(a) of the FAR (48 CFR § 31.202(a)) states, “All costs specifically identified with
other final cost objectives of the contractor are direct costs of those cost objectives and are not to
be charged to the contract directly or indirectly.”

Pursuant to FAR 31.204(a) (48 CFR § 31.204(a)), “[c]osts are allowable to the extent they are
reasonable, allocable, and determined to be allowable ....”

Section 31.205-6(a) of the FAR (48 CFR § 31.205-6(a)) states, “Compensation for personal
services includes all remuneration paid currently or accrued, in whatever form and whether paid
immediately or deferred, for services rendered by employees to the contractor during the period
of contract performance ... it includes, but not limited to, salaries; wages ... fringe benefits ....”

Centers for Medicare & Medicaid Services Guidance

A November 15, 2000, CMS Memorandum states, “Severance pay shall only be paid to
employees of cost centers whose function is directly servicing the Medicare contract at the time
of the non-renewal or termination notice if such cost center is eliminated or its staffing level is
decreased due to the non-renewal or termination.” This guidance is reiterated in Section 5-2 of
the DMERC Workload Closeout Handbook dated January 4, 2006.

Section 8-4 of the DMERC Workload Closeout Handbook, dated January 4, 2006, states:

           … Termination costs are not to be included in the FACP; only vouchers may be
           used to claim reimbursement of termination costs .... These vouchers … must
           provide sufficient detail to demonstrate that the costs have been incurred and paid.
           CMS will review the vouchers and make payments as appropriate.2

TERMINATION COSTS NOT SUPPORTED AS REASONABLE, ALLOCABLE, OR
ALLOWABLE

Of the $2,289,864 in DMERC termination costs reviewed, $1,366,424 was allowable for
Medicare reimbursement under the DMERC contract. The remaining $923,440 was not

2
    This report refers to vouchers used to claim reimbursement of termination cost as “termination cost vouchers.”



                                                         4

considered reimbursable under the DMERC contract. Of the $923,440, we set aside $745,962
for CMS adjudication, since it was otherwise allowable under CIGNA’s Medicare Part B
contract. The remaining $177,478 was unallowable for Medicare reimbursement. CIGNA did
not have adequate policies and procedures to ensure that these costs were adequately supported
and allocated to the DMERC contract in compliance with applicable Federal regulations and
CMS guidance.

Severance Pay

CIGNA claimed $692,817 for severance pay that was not reasonable, allocable, or allowable for
Medicare reimbursement, as required by FAR 31.201-2(d) (48 CFR § 31.201-2(d)) and FAR
31.201-4 (48 CFR § 31.201-4). Specifically, CIGNA claimed $559,900 for 40 employees who
were employed under a Part B expense center. Because these were not DMERC employees, the
severance costs were not allocable to the DMERC contract. However, since these costs were
otherwise allowable under the Medicare Part B contract, we are setting them aside for CMS
adjudication.

Furthermore, CIGNA claimed $131,849 for 13 employees who received severance pay for more
than 26 weeks, the length of time we considered reasonable under the contract. CIGNA’s
DMERC contract lasted 13 years from January 1, 1993, through September 30, 2006. In
accordance with its severance pay plan, CIGNA calculated severance for eligible employees at 2
weeks of severance pay at the base salary rate for each completed year of service with CIGNA.
In some cases, CIGNA’s severance calculation included years of service in excess of the
DMERC contract period. Therefore, we considered the allowable maximum number of weeks
for severance pay allocable to the DMERC contract to be 26 weeks. Accordingly, we considered
severance pay claimed in excess of 26 weeks not to be allocable to the DMERC contract.
Severance costs exceeding 26 weeks were not distributed to Medicare “in reasonable proportion
to the benefits received ….” as required by FAR 31.201-4 (b) (48 CFR § 31.201-4(b)).

Finally, CIGNA claimed $1,068 for 3 employees who received excess severance pay based on
erroneous calculations. This excessive pay was contrary to FAR 31.204(a) (48 CFR § 31.204(a))
which states that “[c]osts are allowable to the extent they are reasonable ....”

Fringe Benefit Costs

CIGNA claimed $167,971 for fringe benefit costs related to the unallowable severance pay
discussed in the previous section. Because the severance pay was not allocable to the DMERC
contract, the related fringe benefit costs are likewise unallowable under the DMERC contract.
Specifically, CIGNA claimed $136,570 for fringe benefit costs related to severance pay for the
40 employees who were employed under a Part B expense center. However, because these costs
were otherwise allowable under the Part B contract, we are setting them aside for CMS
adjudication.

Furthermore, CIGNA claimed $31,137 for fringe benefit costs related to the unallowable
severance pay for the 13 employees receiving severance pay in excess of 26 weeks.




                                             5

Finally, CIGNA claimed $264 for fringe benefit costs related to the severance pay for the 3
employees who received excess severance pay based on erroneous calculations.

Other Costs

CIGNA claimed $49,492 for repair/maintenance costs in caption account # 1428. This caption
account was accumulated within expense center # 7G75, which was allocable to the Part B
contract. Therefore, like the unallowable severance pay ($559,900) and fringe benefit costs
($136,570), these Part B costs were not allocable to the DMERC contract. However, because
these costs were otherwise allowable under the Medicare Part B contract, we are setting them
aside for CMS adjudication.3

In addition, CIGNA claimed $13,160 for moving, shipping, and office-closure costs. However,
CIGNA was unable to provide any documentation to support the allowability of these costs.
Section 31.201-2(d) of the FAR (48 CFR § 31.201-2(d)) states that CIGNA is responsible for
“... maintaining records, including supporting documentation, adequate to demonstrate that costs
claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles ....”

INADEQUATE POLICIES AND PROCEDURES

CIGNA did not have adequate policies and procedures to ensure that costs were adequately
supported and allocated to the DMERC contract in compliance with applicable Federal
regulations and CMS guidance.

As a result CIGNA claimed $923,440 in unallowable DMERC termination costs.

RECOMMENDATIONS

We recommend that CIGNA:

    	 refund to CMS $177,478 related to unallowable costs claimed on CIGNA’s termination
       cost vouchers,

    	 work with CMS to resolve $745,962 in costs allocable to CIGNA’s Medicare Part B
       contract that were improperly claimed on CIGNA’s termination cost vouchers, and

    	 strengthen its policies and procedures to ensure compliance with applicable Federal
       regulations and CMS guidance for claiming termination costs.

CIGNA COMMENTS

In comments on our draft report, CIGNA disagreed with our findings and considered all costs
charged to the DMERC termination as allowable and allocable. CIGNA acknowledged that
3
 In the aggregate, we set aside $745,962 for CMS adjudication, because it was otherwise allowable under CIGNA’s
Part B Medicare contract.


                                                    6

there were employees terminated as part of the contract termination who had been working
primarily on the Part B contract. However, CIGNA maintained that the loss of the DMERC
contract triggered the severance and staff reduction. Accordingly, CIGNA reviewed the entire
employee population and retained the best employees regardless of the contract they were
currently working.

With regard to the finding of reasonable severance beyond 26 weeks, CIGNA stated that these
long term employees worked solely on government contracts throughout their careers, which
spanned periods of time in excess of the DMERC contract. Further, CIGNA maintained that no
severance expense would have been incurred without the DMERC contract termination and that
these payments were made pursuant to a written plan submitted to CMS annually as part of the
budget request process.

CIGNA disagreed with the $13,160 in moving, shipping, and office-closure costs deemed
unsupported and, therefore, unallowable. CIGNA stated that it provided us with invoices and
internal electronic documentation supporting some of these costs. CIGNA also stated that it can
provide invoices to CMS to confirm the proper treatment of the remaining expenses that we
deemed unsupported and unallowable.

CIGNA’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the severance pay for employees working on the Part B contract was not
reasonable, allocable, or allowable for Medicare reimbursement under the DMERC contract in
accordance with FAR 31.201-2(d) (48 CFR § 31.201-2(d)) and FAR 31.201-4 (48 CFR §
31.201-4). Furthermore, we maintain that the severance pay for employees for more than
26 weeks, the length of time we considered reasonable under the contract, were not distributed to
Medicare “in reasonable proportion to the benefits received….” as required by FAR 31.201-4 (b)
(48 CFR § 31.201-4(b)).

With regard to the $13,160 in moving, shipping, and office-closure costs, CIGNA did not
provide invoices or additional documentation supporting these expenses with its comments to the
draft report. Therefore, we could not determine whether these expenses were allowable for
allocation to the DMERC contract, and we maintain that these costs are not allocable to
Medicare.




                                              7

APPENDIX

                                                                                 Page 1 of 3
Steve Bishop
Accounting Director
                      APPENDIX: CIGNA COMMENTS


                                                                         A
                                                                         Services
                                                                                 Government



                                                                         Routing 795
May 17, 2011                                                             Two Vantage Way
                                                                         Nashville, TN 37221
                                                                         Telephone 615-782-4616
                                                                         Facsimile 615-252-3650
                                                                         stephen.bishop@cigna.com
Peter J. Barbera
Regional Inspector General for Audit Services
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T1
Atlanta, GA 30303

Re: Audit Report No. A-04-07-00033

Dear Mr. Barbera:

This letter is in response to Audit Report No. A-04-07-00033, which noted unallowable
termination costs of $177,478 and $745,962 of costs improperly charged to the DMERC
termination.

CGS disagrees with the findings associated with the termination costs and considers all costs
charged to the DMERC termination as allowable and allocable. As noted in the OIG report,
there were employees terminated as part of this contract termination that had been working
primarily on the Part B contract. However, as part of this contract termination, CGS reviewed
the entire employee population to determine those that would be severed with the goal of
retaining the best employees regardless of the contract they were currently working. The trigger
for this severance and staff reduction was the loss of the DMERC contract and thus all costs
should be considered allowable and allocable to the DMERC termination.

Regarding the finding of reasonable severance beyond the 26 weeks, CGS disagrees with the
OIG. Similar to the comments above, the trigger for the severance was the loss of the DMERC
termination contract. These long term employees have worked solely on government contracts
throughout their career, which spans a period of time in excess of the DMERC contract.
However, this does not mean the severance should not be regarded as allowable. No severance
expense would have been incurred at all without the termination of the contract. Further, the
payments have been made pursuant to a written plan that has been submitted to CMS annually
as a part of our budget request process. Thus, CGS believes these costs should be regarded as
allowable and allocable to the DMERC termination.
                                                                                 Page 2 of 3

May 17, 2011
Page 2



The OIG also notes $13,160 in moving, shipping and office closure costs as unsupported and
therefore unallowable. The table below summarizes the items comprising the $13,160 and
states CGS response to each item.
                                         Total Cost
                                        included in
            Type of Cost                  Finding                    CGS Response
Federal Express shipping expense           $4,655.63 There are 48 Fed Ex invoices that
                                                       comprise the $4,655.63 which the OIG
                                                       has deemed unsupported and
                                                       unallowable. CGS can provide these
                                                       48 invoices to CMS as part of the final
                                                       settlement to confirm the proper
                                                       treatment of these expenses as
                                                       allowable and allocable to the DMERC
                                                       termination contract.
Alexander’s Mobility Services              $3,255.00 The expense in question is for project
                                                       management related to the physical
                                                       move of furniture and equipment from
                                                       the Boise, ID office. CGS provided
                                                       the OIG with a copy of the invoice
                                                       supporting this expense. CGS believes
                                                       that this cost is allowable and allocable
                                                       to the DMERC termination.
CIGNA Project Costs                          $966.00 This expense is a pass-through project
                                                       charge from CIGNA Corporate for
                                                       services related to the dismantling of
                                                       the DMERC phone system. CGS
                                                       provided the OIG with a spreadsheet
                                                       from CIGNA Corporate detailing all of
                                                       the pass-through project costs for
                                                       November 2006. CGS believes that
                                                       this cost is allowable and allocable to
                                                       the DMERC termination.
CIGNA Project Costs                        $4,144.00 This expense is a pass-through project
                                                       charge from CIGNA Corporate for
                                                       services related to the closure of the
                                                       Boise, ID office. CGS provided the
                                                       OIG with a spreadsheet from CIGNA
                                                       Corporate detailing all of the pass-
                                                       through project costs for November
                                                       2006. CGS believes that this cost is
                                                       allowable and allocable to the DMERC
                                                                                Page 3 of3

May 17,2011
Page 3



                                                        tennination.
Tax on Siemen's IT Support Services           $139.00                      5/15/2008 from
                                                                         CGS   to_
                                                                   n.uu·"v.,.~d
                                                                 detail supporting spreadsheets
                                                        that CGS receives from CIGNA
                                                        Corporate in support of the expense
                                                        charged for services provided by
                                                        Siemen's staff do not include tax on
                                                        the services. However, the tax is
                                                        charged through the actual expense
                                                        received via the CIGNA Expense
                                                        System download which is fed into
                                                        CGS's ledger. The $139 item
                                                        disallowed represents the tax on these
                                                        services and CGS believes that this
                                                        cost is allowable and allocable to the
                                                        DMERC tennination.

Total                                      $13,159.63


Please freeto contact Mike Logan at 615.782.4595 or myself at 615.782.4616 if you have
questions regarding this response.

Sincerely,

ISteve Bishopl

Steve Bishop


Cc:     Eric Bowen, OIG
        Joseph Turner, OIG
        Mike Logan, CGS




      Office of Inspector General Note - The deleted text has been redacted
      because it is personally identifiable information.
